2o
No.
In the Supreme Court of the United States

John E. Reardon, Petitioner, Pro Se
v

Officer Leason & Simon of Runnemede, Andrew Rossetti, Karen Caplan,
Kevin Walshe, James Farmer and Frank Soltis, Howard Gilfert, Warren Faulk,
Judges Joseph Greene and Isaiah Steinberg, James Mulvihill, D.Sgt. Bruce
Dawson, Appellate Judges Gaukin, Kestin, Hayden, Payne and Ashrafi, Judges
Wells, Freeman, Pugliese and Ragonese and Ms. Martha Shaw.
On Petition for a Writ of Certiorari
To the United States Cour of Appeals
For the Third Circuit

John E. Reardon, Pro Se
1 Joans Lane
Berlin, N.J. 08009-1516
Home/Fax: 856-753-5116
856-417-4131
Cell:

FILED
AUG 3 1 2020

Questions/Issues for Review
Whether Judges, Prosecutors and other officials can be held liable for either
Equity and/or Legal relief for any of the following reasons.
1. Their actions were as a result of lack of loss of or usurpation of Jurisdicion and/or Discretion.
2. They have Common Law Mandates placed upon them that barred them
from not complying with the Common Law under 7 such rights.
3. Whether another court can validate a claim of lack of, usurpation of or loss
of Jurisdiction and/or Discretion which is always open to inquiry; is entitled to relief
from void orders even before the proceedings are declared void; whether such issues
are for the Jury and not the Judge; Whether the fraud of failure to recuse, failure to
comply with Common Law mandates or trying and sentencing an alleged felon on
alleged crimes when the indictment of said crimes were not procured properly and
thus if these frauds occur, is the jury the proper venue to determine the frauds in
accordance with the case of State v Zisa, N.J. App. Court, 2015 and whether such
law and facts allows for a dismissal of a lawsuit under Rule 12(b) issues or is the
plaintiff at least entitled to discovery or a plenary hearing?
4. Given this court’s decision in U.S. v Beggerly, 524 U.S. 38, 42-45, 1998,
since the State Courts have ruled the PCR Motions were untimely, the only process
available to rectify the void proceedings is by way of a Collateral attack and the
lower courts have denied this right. And
5. Are Police officers and public defenders liable for conspiring with judges
and/or prosecutors, and if yes, should a lawsuit be dismissed in its entirety?
l

Table of Contents
Item

Page

1. Opinions Below'-

1

2. Jurisdictional Statement:

2

3. Constitutional and Statutory Provisions involved:

2

4. Statement:

3

A. Background:

5

B. Facts And Procedural History:

10

5. Reasons to grant Petition*

16

A. The Issues/Question are exceptionally important

16

B. Decisions below are erroneous:

20

1. Examples of Abuse or error:

23

2. Relief Sought;

28

6. Conclusion.

28

ii

Table of Citations
Citation

Page

Allstate Inurnce Co. Of N.J. v Lajra, 117 A.3d 1221, N.J.
Supreme Court, 2015

24

Antoine v Byers & Anderson Inc., 508 U.S. 429, 1993

8,9,15,16,21

Bogan v Scott-Harris, 523 US 44, 1998

7-9, 15-16,20-21

Bradley v Fisher, 80 U.S. 335, 1872

10,18,21

Buckley v Fitzsimmons, 509 U.S. 259, 1993

10, 21

Caperton v Massey Coal Co., 129 S.Ct. 2252, 2009

7

Chisholm v Helm, 2 U.S. 219

6

Curtis v Loether, 415 U.S. 189, 1974

24

Elliot v Pierson, IPet. 328, 1828

6,10,14,15,19,21

Grover & Baker Sewing Machine Co. v. Radcliffe,
137 US 287, 1890

19

Hafer v Melo, 502 U.S. 21, 1994

8,9,20,21,23,25

HALL ET AL. v. LANNING ET AL„ 91 US 160, 1875

19

Hughes v Long, 242 F.3d 121, 3rd Cir. 2001

10,21

Jones v Bock, 127 S.Ct. 910, 2007

35

In re Charter Communications, Inc., 393 F.3d 771,
8th Circuit 2005

8

Laskaris v Thornburgh, 661 F.2d 23, 3rd Cir. 1981

10

Lawrence v State Tax Commission, 276 U.S. 282, 1932

25,27

Liteky v U.S., 501 U.S. 540, 1994

6

McDonough v Smith, 139 S.Ct. 2149, 2019

24

in

Citation

Page

Melo v Hafer, 13 F.3d 736, 1994

8,9,20

Mitchell v Beard, 3rd Cir. 2012

24

Mireles v Waco, 502 US 9, 11, 1991

9

Morrell v. Mock, 270 F. 3d 1090, 7th Cir. 2001

19

M.P. v S.P. 169 N.J.Super. 425, 1979

8

Muller v. Muller, NJ: Appellate Div. 2011

8

National Life Insurance Co. v United States,
277 U.S. 508, 1928

25

Pantieh v Pantich, 770 A.2d 1237,N.J. App. 2001

13

Pennoyer v Neff, 95 US 714,728, 1877

19

Pierson v. Ray, 386 US 547, 1967

18,27

Pulliam v Allen, 466 U.S. 522, 1981

13,20

Raymark Industries, Inc. v Lai, 973 F. 2d
1125, 3rd Cir. 1992

20

Regina v O’Grady, 7 Coxx C.C. 247, 1857

6

Richardon v N.J., D.C., D.N.J. 2019

10

Russell v. United States, 369 U.S. 749, 1962

8

Sabariego v Maverick, 124 U.S. 261, 1886

19

Seheuer v Rhodes 412 U.S. 232, 1974

10

Schick v U.S., 195 U.S. 65

6

Shelby, Miss., 135 S.Ct. 346, 2014.

27

Simmons v. Saul, 138 US 439, 1891

18-19
IV

Citation

Page

Solem v Heim, 463 U.S. 277

6

Skinner v Switzer, 131 S.Ct. 1289, 2011

9,27

State v Addonizio, 451 F.2d 99, 3rd Cir. 19781

8

State v American Can Co., 42 N.J. 32, N.J.
Supreme Court 1964

7

State v Balistieri, 779 F.2d 1191, 7th Cir. 1985

7

State v Booker, N.J. App. 2015

6,7

State v Freeman, 347 N.J. Super. 11, N.J.App. 2002

24

State v Gieo, 950 A.2d 930, N.J. App. 2008

7

State v Hanna, N.J.App. 2012

6,7

State v McCAbe, 982 A.2d 567, N.J.SupremeCourt 2010

7

State v Plummer, N.J. APP., 2016

6

State v Presley, 94 A.3d. 92, N.J. App. 2004

7

State v RH, N.J. App. 2015

8

State v Salter, 42 A.3d 196, N.J. Supreme Court, 2012

8

State v Thompson, 95 A.3d 451, N.J .App. 2008

7

State v Tucker, 264 N.J. Super. 549, 1993

6

State v Utsch, 184 N.J. Super. 575, 1983

6

State v Zisa, N.J. App. Court, 2015

i, 19

Sutton v Racine County Court, Racine Wis., 353 F.Supp.
716, 1973

27

The Queen v The Justices of Suffolk, 18 Q.B. 416, 1852

6

v

Cite

Page

The Queen v the Justices of London, 18 Q.B. 421, 1852

6

Thompson v Whitman, 85 U.S. 4o7, 1873

8-9,21

Tull v U.S., 481 U.S. 412, 1987

24

U.S. v Addonizio, 457 F.3d 40, 3rd Cir. 2012

8

U.S. v Beggerly, 524 U.S. 38, 1998

i, 19

U.S. y Lopez, 12 f.3d 1342, 5th Cir. 1993

8

U.S. v Moyer, 624 F.3d 192, 3rd Cir. 2012

8

US v. Omer, 429 F. 3d 835 9th Cir. 2005

8

U.S. v One Toshiba Color Television, 213 F.3d 147,
3rd Cir. 2000

19,22-23

U.S. v Polludniak, 651 F.2d 948, 9th Cir. 1982

8

U.S.v Prentis, 256 F.3d 971, 10th Cir. 2001

8

US Ex Rel Waterbrook v UPMC, 938 F.3d 397,
3rd Cir. 2010

22

U.S. v Sciuto, 521 F.2d 842, 7th Cir. 1976

7

U.S. v Torres, 901 F2d 205, 2nd Cir. 1994

8

US v. Weaver, Dist. Court, SD West Virginia 2010

8

U.S. v Wong Kim Ark, 169 U.S. 1976

6

1st Amendment

22

5th Amendment

22

9th Amednment

24

11th Amendment

22
vi

Cite

Page

Rule 12

21

Rule 60

11

Blackstone’s Commentaries

4-5, 9

Joseph. Story’s Commentaries

4,6,17

Mr. Lawrence, 39th Congress, 1st Session, April 7, 1866
@1837

17

Vll

No.
In the Supreme Court of the United States

John E. Reardon, Petitioner, Pro Se
v
Officer Leason & Simon of Runnemede, Andrew Rossetti, Karen Caplan,
Kevin Walshe, James Farmer and Frank Soltis, Howard Gilfert, Warren Faulk,
Judges Joseph Greene and Isaiah Steinberg, James Mulvihill, D.Sgt. Bruce
Dawson, Appellate Judges Gaukin, Kestin, Hayden, Payne and Ashrafi, Judges
Wells, Freeman, Pugliese and Ragonese and Ms. Martha Shaw.
On Petition for a Writ of Certiorari
To the United States Cour of Appeals
For the Third Circuit

John E. Reardon, Pro Se, respectfully petitions for a writ of Certiorari
to review the judgment of the Court of Appeals for the Third Circuit in this case.
Opinions Below
The opinion of the United Stated District court for the District of New
Jersey, the Hon. Judge Noel Hillman, was entered on January 2,2020 denying the
right to open and amend this lawsuit as to new facts, parties or defects in the law.
The lawsuit alleged that Judges Steinberg and Greene Lacked, Lost or Usurped
1

their Jurisdiction and/or Discretion to hear any matter involving the petitioner.
This new motion took issue with void proceedings due to jurisdictional defects for
which there is no time period to bring to the court’s attention.
The Third Circuit ruled on August 11, 2020 that the order and opinion of
Judge Hillman was affirmed. The defendants were alleged to lack jurisdiction on
a valid factual foundation. A24-28, 32*33, 36*40, 43*84, 88*125.
Statement of Jurisdiction
The judgment of the court of appeals was entered on August 11, 2020.
Al*7.
This courts jurisdiction is brought under 28 U.S.C. 2101.
Constitutional and Statutory provisions involved.
Amendment 6:
In all criminal prosecutions, the accused shall enjoy the right to a speedy
and public trial, by an impartial jury of the State and district wherein the crime
shall have been committed, which district shall have been previously ascertained
by law, and to be informed of the nature and cause of the accusation; to be
confronted with the witnesses against him; to have compulsory process for obtain­
ing witnesses in his favor, and to have the Assistance of Counsel for his defence.
Amendment 9:
The enumeration in the Constitution, of certain rights, shall not be
construed to deny or disparage others retained by the people.
Amendment 14:
2

1. All persons born or naturalized in the United States, and subject to the
jurisdiction thereof, are citizens of the United States and of the state wherein they
reside. No state shall make or enforce any law which shall abridge the privileges
or immunities of citizens of the United States; nor shall any state deprive any
person of life, liberty, or property without due process of law, nor deny to any
person within its jurisdiction the equal protection of the laws.
42 U.S.C. 1983:
Every person who, under color of any statute, ordinance, regulation, custom
, or usage, of any State or Territory or the District of Columbia, subjects, or causes
to be subjected, any citizen of the United States or other person within the juris­
diction thereof to the deprivation of any rights, privileges, or immunities secured
by the Constitution and laws, shall be liable to the party injured in an action at
law, suit in equity, or other proper proceeding for redress, except that in any
action brought against a judicial officer for an act or omission taken in such
officer’s judicial capacity, injunctive relief shall not be granted unless a declara­
tory decree was violated or declaratory relief was unavailable.
Statement
This lawsuit was sought to be amended to include New Facts, New Law,
New Claims/Issues and New Parties.
This lawsuit was originally filed in 2013 under docket i:i3-cv-05363.
This case involves exceptionally Important Legal Issues that this court needs
to resolve. These issues involve Immunity and/or Liability of Officials that have
3

mandates placed upon them by the Common Law, By State Appellate and other
court decisions that strips jurisdiction from officials for failure to carry out or
comply with specific functions. These functions are:
A. That the Common law places on all judges a mandate that they cannot
rule contrary to the Common law as it is not in the breast of any such Judge to do
so. Blackstone’s Commentaries, Introduction to Laws of England, Page 69 and
Joseph Story’s Commentaries, Volume 1, Pages 308-309.
B. The Accused is guaranteed the right to a probable cause Hearing to test
the veracity of the charges lodged against him and for setting of reasonable bail,
which I was denied of. Book 4, Chapter 22, Page 293;
C. To an indictment that is clear and certain which I was denied of. Book 3„
Chapter 23, Page 303;
D. To proof by at least 2 honest and reputable witnesses which was not com­
plied with. Book 3, Chapter 23, Pages 371-372 and Book 4, Chapter 27, Pages 346,
351;
E. To adequate Counsel which was not provided. Book 4, Chapter 27,Page
351;
F. To bar evidence that is not adduced before the Grand Jury which the court
allowed into the trial. Book 4, Chapter 27, Page 351-352;
G. To a speedy trial that cannot go beyond 1 year from the filing of the
charges which I was denied of. Book, Chapter 23, Page 308 and Chapter 27, Page
346J and
4

H. To allow the admittance of evidence that would be helpful to the Jury
which I was denied of. Book 4, Chapter 27, Page 353.
The court and prosecutor are barred from not complying with the above man­
dates and since they are mandates, they are ministerial acts and as this court has
said, Officials are not immune from violating ministerial acts. That is it is not a
proper function of the official which the lower courts ignored.
This court needs to resolve these issues so that all Judges, all plaintiffs, and
all defendants know if these common law mandates, and Court decisions that
appear to be mandates, as to whether the officials involved are in fact Liable or are
in fact Immune, and is fully aware of said law and mandates.
This court has for over 200 years found the common law grants immunity
and Mr. Reardon does believe that this same common law takes away immunity
for the reasons stated under the law which is that Failure to comply with a man­
date, or of the Appellate Court, or the fact that the law strips jurisdiction from
officials if they do not recuse themselves when required or try indictments that are
defective or improperly procured. Under all the conditions stated in this petition
does the official lose jurisdiction and immunity?
A. Background
Where the Statute law and Common law differ, the Common Law gives place
to the Statute Law. Blackstone’s Commentaries, Introduction to the laws of
England, Page 89.
Rights that are secured by the U.S. Constitution cannot be surrendered or
5

transferred by any means. Joseph Story’s Commentaries, Volume 1, Pages 308309.
This court found that the law must comply with the Common Law. United
States v. Wong Kim Ark, 169 U. S. 649, 654.
This court found that Blackstone’s Commentaries are accepted as the most
satisfactory exposition of the Common Law. Schick v U.S. 195 U.S. @ 69;
Chisholm v Georgia, 2 U.S. (Dali) 419, 435; Solemn v Helm, 463 U.S. 277, 286;
Joseph Story’s Constitutional Commentaries,Page 65 (1833).
This court held in Liteky v U.S., 501 U.S. 540, 541, 544-546, 548-555, 557559, 1994, that extra Judicial, and thus adverse, contact with a party before him
requires recusal from said proceedings and Judges Steinberg and Greene were
required to so recuse themselves for the appearances of Justice and they failed to so
do. State v Tucker, 264 N.J. Super. 549, 554*545, 19935 State v Booker, N.J. App.
2015; Pantich v Pantich, 770 A.2d 1237, 1239, N.J. App. 2001 and State v
Plummer, N.J. App. 2016.
The State Courts have held that it is the duty of the judge to recuse himself
on his own motion if even the appearance of bias exists. State v Utsch,184 N.J.
Super. 575, 581, 1983.
The law is that failure to recuse, when required, strips jurisdiction from the
Judge; His proceedings/judgements can’t be upheld and he must recuse himself on
his own motion and Judge Steinberg and Greene failed to do this; They failed to
carry out a ministerial act. The Queen v The Justices of Suffolk, 18 Q.B. 416, 1852;
The Queen v The Justices of London, 18 Q.B. 421, 1852; Regina v O’Grady, 7 Cox
C.C. 247, 1857; Elliot v Piersol, 1 Pet. 328, 340, 1828; State v Utsch, 184 N.J.
Super. 575, 581, 1982; State v Booker, N.J,. App. 2015; State v Hanna, N.J. App.
6

2012 and State v Balisteri, 779 F.2d 1191, 1202, 7th Cir. 1985.
The Courts have found If the average man on the street would harbor doubts
about the Judge’s impartiality the Judge must recuse himself, and I presented the
affidavits of 5 such citizens on this issue, and the courts ignored this law and facts.
State v McCabe, 987 A.2d 567,572, N,J, Supreme Court 2010 and U.S. v Polludniack, 657 F.2d 948, Cert. Den. 102 S.Ct. 1431, 9th Cir. 1982. A85-125.
The courts have held if a judge is required to recuse himself and he doesn’t he
violates Due Process of law. U.S. v Sciuto, 521 F.2d 842, 845, 7th Cir. 1976 and
Caperton v Massey Coal Co., 129 S.Ct. 2252, 2254-2255, 2259-2260 and 2263,
2009.
The courts have found if a Judge is required to recuse himself and he doesn’t
his orders and judgments are void. State v American Can Co., 42 N.J. 32, 38, N.J.
Supreme Court 1964; State v Presley, 94 A.3d 921, 925, N.J. App. 2014; State v
Gieo, 950 A.2d 930, 936, N,J. App. 2008 and State v Booker, N.J. App. 2015.
The courts held Failure to recuse is official misconduct under N.J.S.A. 2U302(b). State v Thompson, 953 A.2d 491, 496, N.J,.App. 2008.
This court has made clear that Judges and prosecutors are not immune if
they fail to comply with a mandatory duty to do or refrain from doing some act and
these respondents have failed to abide by this law and this court has said that
mandatory acts are ministerial and the official is not immune from liability for so
failing to comply with said act(s). Judge Hillman has simply found that he can rule
on the claims of the validity of the state proceedings, and void and controvert the
right to inquire into the void proceedings in the State and it pertains to all state
officials; judges only immune for official acts.’ that court orders create ministerial
acts the official can be liable for not complying with; and that Ministerial acts are
not official acts warranting immunity or if the official carries out an official act
without jurisdiction the official is liable according to- Bogan v Scott-Harris, 523 US
7

44, 51-52, 1998J Antoine v Byers & Anderson Inc., 508 U.S. 429, 435, 1993; In re
Charter Commun ications, Inc., 393 F.3d 771, 784, 8th Circuit 2005; Hafer v Melo,
13 F.3d 736, 744, 3rd Cir. 1991; Thompson v Whitman, 85 U.S. 457, 466-468, 1873
and Simmons v Saul, 138 U.S. 439, 448, 1891. The opinion of the lower courts is
such that they believe that unless I have a case directly finding in my favor on these
issues that I have no standing to so challenge and allege such conduct and law.
The Courts have held officials who disregard a mandate upon them as to
recusal, or failing to carry out a ministerial act causes loss of jurisdiction which was
that all judges were informed that all proceedings before any judge no matter where
it occurs the Judge must transcribe, record or memorialize the said proceedings and
Judge Steinberg did fail to do this on 6/20/90 and 6/29/90. M.P. v S.P., 169 N.J.
Super. 425, 441-443, 1979 and Muller v. Muller, NJ: Appellate Div. 2011, Antoine
Supra and Bogan Supra. Which caused the denial of barring evidence from such
searches. A45-52.
That the hearing and trial of a person on a defective indictment strips juris
-diction from the Judges and Prosecutors. Russell v. United States, 369 U.S. 749,
763-764, 1962; US v. Omer, 429 F. 3d 835, 836 9th Cir. 2005, US v. Weaver, Dist.
Court, SD West Virginia 2010; US v. Lopez, 2 F. 3d 1342, 1368, 5th Cir. 1993 and
US v Prentiss, 256 F. 3d 971, 994, 10th Cir. 2001.
The Courts have found that an accused is entitled to a Bill of Particulars
and I was never provided with one prior to trial as required. U.S. v Torres, 901 F.2d
205, 214,2nd Cir. 1996; U.S. v Addonizio, 451 F.2d 40, 63, 64, 3rd Cir. 1971; U.S.
v Moyer, 624 F.3d 192, 198-199, 202-204, 3rd Cir. 2012; Statev Salter, 42 A.3d
196, 202, 2012; State v RH, NJ.App. 2015; U.S. v Moyer, 624 F.2d 193, 198-199,
3rd Cir. 2012 and United States v. Addonizio, 451 F. 2d 49, 63, 64, 3rd Cir. 1971.
The Third Circuit has held that if a judge lacks jurisdiction, when he carries
out such a function, he is not immune. Melo v Hafer, 13 F.3d 736, 744, 3rd Cir. 1991
8

and Hafer v Melo, 502 U.S. 21, 27, 1991.
The Common Law has been held, by the authority of this court, to be requir­
ed to be complied with and the State respondents and the Lower courts have not so
complied with the common law as per Blackstone’s Commentaries as stated herein.
This court has held that Officials are amenable to equity type relief and to
damages as per Melo v Hafer, 502 U.AS. 21, 27, 1991; Antoine v Byers Supra;
Bogan v Scott-Harris Supra; Bradley v Fisher, 80 U.S. 335, 351, 352, 1872 and
Mireles v Waco, 502 US 9, 11, 12, 1991.
This court has held that raising of independent claims for the State proceed­
ings, even If they involve issues addressed in the state, is not subject to RookerFeldman bars, Skinner v Switzer, 131 S. Ct. 1289, 2011 and That issues of jurisdic
tion are always open to inquiry, not subject to preclusion defenses or are not seek­
ing to set aside the Court Judgement under Heck v Humphrey and that the courts
cannot rely on anything from the challenged proceedings to controvert the jurisdic­
tional challenge, Thompsn v Whitman Supra., and all law cited in this petition.
The lower courts have not complied with these requirements.
Is the request to set aside void orders or proceedings for jurisdictional and/or
Discretionary defects barred by Heck v Humphrey? The voiding of proceedings
seems to appear to say that this is not the same as setting aside proceedings based
upon the facts or merits of the facts as to a conviction being set aside for such. The
declaration of proceedings being void only allows the finding that the proceedings
are void and thus the right to get a certificate of correction allowing the injured
party the right to then go back to the state with new law and facts to set aside his
prior conviction which is what Mr. Reardon sought as to equity type relief and then
for damages for denying Mr. Reardon of his constitutional rights.
The courts have held that no court can validate or uphold void orders or
proceedings.
9

*

s:

4

4

>

4

I

4

The courts held that when jurisdictional defects are alleged the court is to
grant a plenary hearing to test the immunity of the official(s), and thus whether the
State or the official is the actual party, which was denied. Scheuer v Rhodes, 416
U.S. 232, 236-237, 1974; Laskaris v Thornburgh, 661 F.2d 23, 26, 3rd Cir. 1981
and Richardson v. New Jersey, Section III. a., Dist. Court, D. New Jersey 2019.
The courts have held that issues of immunity are required to be proven by
the official which was not done here. Buckley v Fitzsimmons, 509 U.S. 259, 269,
1993 and Hughes v Long, 242 F.3d 121, 125, 3rd Cir. 2001; A28-32, 34, 37, 4042, 47, 49-59.
The courts have held that loss of jurisdiction occurs from (l) Failure to recuse
when required; (2) for failure to comply with Common Law Mandates or Appellate,
or other Court, mandates and (3) prosecution of a criminal charge when the indict­
ment is not properly procured or defective.
B. Facts and Procedural History
This lawsuit was originally filed in 2013 after being denied Post Conviction
Relief in the State Court challenging the denial of relief under 42 U.S.C. 1983. Mr.
Reardon was not aware of the Heck v Humphry or Rooker-Feldman Criteria and
the Court did dismiss the suit properly based on the facts then alleged.
In 2017 and 2018 Mr. Reardon did file PCR Motions to set aside my convic­
tion due to the mentioned Judges violating numerous Constitutional Rights.
In 2018 I Did discover the facts that Judges Greene and Steinberg lacked,
lost or usurped their Jurisdiction and/or Discretion to hear and try Mr. Reardon
for the crimes he was charged with for failure to recuse and defective Indictment,
common Law mandates, or a Ministerial act(s) that was not performed by Judge
Steinberg, and that all other judges were barred from validating said void proceed­
ings. They were liable as per Bradley v Fisher, 80 U.S. 335, 351, 352, 1872 and
Elliot v Piersol, 1 Peters 328, 340, 1828.
10

The lawsuit sought relief against all the State PCR Judges and Appellate
Court Judges for validating, giving credibility or credence to, the void proceedings
and orders of Judges Steinberg and Greene which cannot be controverted by the
court and to deny the right to inquire into the validity of the State Proceedings.
Compare Al-23 to 24-125.
These motions were denied and the First PCR Motion was appealed and
denied.
Mr. Reardon did then file a Motion in the U.S. District Court under 1‘13-cv05363 to set aside the order of dismissal and to Amend the lawsuit to include new
facts, new defendants, missed/ignored law and new grounds involving the jurisdic­
tional defects of all parties named in this petition. The motion was brought under
60(b) and (d)(3) and that void proceedings, orders, etc. are always open to inquiry
and these void proceedings in the state were never addressed or known prior to this
motion.
The motion to re-open and to amend was denied by Judge Hillman on
January 2, 2020. A22-23.
On February 10, 2020 Mr. Reardon’s Appeal was docketed in the third
Circuit court of appeals.
On August 11, 2020 the court of Appeals did affirm the order of Judge
Hillman.
This petition is brought due to liability for violations of Ministerial or Non­
discretionary acts and for loss of, lack of or usurpation of Jurisdiction and/or
Discretion by judges who were required to recuse themselves, and they failed and
refused to so do, and thus would be liable for such non-discretionary act or for

actions when the indictment is procured improperly and for loss of, lack of or usurpa
*tion of Discretion and/or Jurisdiction for such defects. The Common Law Mandates
strips a Judge of his discretion under 7 areas of the Common Lav/. Blackstone’s
11

Commentaries and thus create ministerial and mandatory acts for which the State
Officials were charged with.
The State Officials basis of the court to denial of my Constitutional rights
was not directly to the alleged violations of said rights, but was directed to the
following independent claims of
A. Relief sought and availablea. Abuse of Process.*
b. Loss of, lack of or usurpation of Jurisdiction and/or Discretion.
c. For void orders as to Issue b above.
d. to seek equity relief as followsi. A certificate of correction to the state proceedings being void so that Mr.
Reardon could then return to the state courts and demand a new trial and
ii a new hearing on the claimed validity to the warrantless search of Mr.
Reardon’s apartment and seizure of all items from the 6/20/90 Search and the fruit
of the poisonous tree search on 6/29/90.
B. For an injunction against the state judges not only based on immunity and
Equity type relief when the official lacks, loses or usurps his jurisdiction and/or
discretion, but for validating, giving credibility to or credence to void proceedings by
motions I brought in the State Courts involving their validating, giving credence to
or credibility to the void orders of Judges Steinberg and Greene. They should also
be enjoined from barring any present or future accused from being denied their
rights trader the law and this lawsuit.
C. For declaratory relief that the State’s Rules of court are either directly un­
constitutional or for the manner they were enforced which denies an accused of rais­
ing issue with Void proceedings in the state without time to so challenge and thus
whether there is a time period in which to raise jurisdictional defects in any lawsuit
or under 42 U.S.C. 1983.

12

D. For legal relief if the court finds the State officials violated the law and
their duty to it.
E. For costs relief as per Pulliam v. Allen, 466 US 522, 524, 525, 527, 544,
545, 1984. And
F. To show a basis for a conspiracy or for accomplice or accessory involve­
ment by the Respondents.
This petition is brought due to the liability for violations of Ministerial or non
-discretionary acts; That one act alleged was a ministerial act; and for loss of, lack
of or usurpation of Jurisdiction and/or Discretion by judges that are required to
recuse themselves and they fail or refuse to so do and thus liability for such non­
discretionary act! or for actions when the indictment is procured improperly or is
defective and for loss of, lack of or usurpation of Jurisdiction and/or Discretion for
such defects and the Official would be liable for this reason as well as for failure to
comply with Common Law Mandates that strips a Judge of his discretion under 7
areas of the Common Law and create ministerial and mandatory acts that the
officials can be sued for if violated or for all the other stated reasons for liability.
The lawsuit attacked the Jurisdiction and/or Discretion of the Judges for (l)
failure to recuse themselves when required and in accordance with law in the State
and Federal Courts or (2) for loss of jurisdiction over 2nd degree crimes when the
indictment was defective and illegally procured; (3) for validating the void orders
and proceedings of Judges Steinberg and Greene and thus against All Appellate
Court Judges and PCR Trial Judges failing to void the proceedings by Judges
Steinberg and Greene; (4) For the judges failures to comply with the mandates of
the Common Law; (5) by all the other Judges’ validation of all preceding judges; (6)
for Judge Steinberg’s failure to transcribe, record or memorialize the Search
Warrants on 6/20/90 and 6/29/90 contrary to the mandate of the Appellate Court. If
the lawsuit was originally defective as to the factual basis for said liability for all
13

the judges, my Amended complaint resolved these disputes. A24-84, 88-125 and
Elliot v Piersol @ 340 and (7) for liability for all non Judge or Prosecutorial defend­
ants.
This lawsuit sought relief in the form of an order of correction, declaratory,
injunctive and costs relief from the State Judges and to legal relief as well. The law
-suit took issue with the fact that the Common Law placed a mandate upon all the
state court judges and prosecutors that they could not deny Mr. Reardon of his
Common Law Rights listed herein and that since it was a mandate upon the judges
to not so rule contrary to the common law that Judges Greene and Steinberg's
orders and proceeding were such that they lost, lacked or usurped their Jurisdiction
and/or Discretion.
The lawsuit challenged Judges Greene’s and Steinberg’s duty to recuse them
-selves from the state proceedings and to also transfer my charges to a different
county for appearance of justice sake. This was premised on the law that holds a
judge loses jurisdiction if he is required to recuse himself and he doesn’t and on an
order of fellow judge Rudolph Rossetti’s sua sponte order in January of 1990 where
he transferred a civil Suit of Mr. Reardon, for appearances of justice, since a party
to the suit was a Camden County Court Clerk and for which 2 alleged parties/tar­
gets of my alleged criminal conduct were named in my will, and there was a Court
Clerk and Judge involved in the charges when I was attempting to commit suicide
prior to my arrest on 6/20/90. A104-105.
I sought and claimed the orders and judgments of Judges Steinberg and
Greene are void for failing and refusing to comply with said issues for all the
reasons stated in this petition.
All Appellate court judges and all PCR Judges were sued on the premise
that under the law no judge can validate, or give credibility or credence to the void
judgments or proceedings of Judges Steinberg and Greene. Elliot v Piersol @340.
14

The lawsuit sought damages for jurisdictional and/or discretionary defects
and for acting as a Trespasser of the law and all the other reason listed in this
petition.
Mr. Reardon did allege that the violation conditions under Antoine v Byers
Supra, Bogan v Scott-Harris Supra and Elliot v Piersol @340, was valid law that
based upon the factual allegations in the lawsuit would hold the State Officials
liable and the court disagreed and simply held that as Judges and Prosecutors they
are immune under any statement of facts and from all relief. Al-57, 85-125.
The lower courts say I must state specific facts to the issue of immunity for
which Mr. Reardon did. The specific facts As to Judges Steinberg and Greene are:
A24-57, 85-125. The above facts, were directly stated and were such that the state
officials would be liable for and under and were ignored by the lower courts any­
way.
A.l, Judge Steinberg failed to recuse himself on his own motion which
caused him to lose jurisdiction when Mr. Reardon had lawsuits against him prior
to becoming involved in the criminal charges against me. A24-57 and 85-125.
2. He failed to carry out a mandatory or ministerial act to transcribe, record
or memorialize the Search warrant proceedings on 6/20/90 and 6/29/90. A39-42, 4957.
3. He further carried out the ministerial act of appointing a Camden County
Judge to hear and try the charges against Mr. Reardon when he was required, for
appearances of Justice, to transfer the case to another County which he failed to do.
B.l. Judge Greene did lose jurisdiction by his administrative decision to
accept the trial of the charges against Mr. Reardon, that was assigned to him, when
he knew, or should have known, it was defective under the law.
2. He failed to carry out 7 mandatory Common Law procedures that stripped
him of jurisdiction/discretion.
15

3. He failed to recuse himself.
4. He tried/prosecuted, convicted and sentenced me on a defective indict­
ment.
C. All other Judges and all prosecutors were stripped of jurisdiction and/or
discretion to so uphold the actions of these 2 Judges and all judges.
Reasons to Grant the Petition
A. These Issues and Question cannot be more important than is by the Issues
Themselves. The law, as premised by Mr. Reardon is clear, but not so to the courts.
These Issues raise the immunity or liability of State Official who are normally
entitled to immunity but for which the petition and the Common Law sets out mandates that no Official can ignore or not comply with. These mandates are such that
what per se might normally be consider as possibly entitled to immunity but for
which BlackStone’s Commentaries makes 7 such legal parameters that all officials
must comply with and can’t ignore.
Since these are mandated by the Common Law, the most logical legal conclu­
sion must be that the failure to so comply with these Mandatory acts would make
such official(s) liable under this courts decisions of Antoine v Byers and Bogan v
Scott-Harris but was not complied with by the lower courts for which this court
needs to determine if the facts stated in this lawsuit and petition requires compli­
ance with this law so that all parties and Judges/Courts know if the Common law
does strip immunity from officials.
This Court has for more than 2 Centuries held that the Common Law allows
immunity for all Executive, Judicial, Legislative and Prosecutorial Officials for
which this case seeks this court to settle whether the Common Law also takes such
immunity from such Officials.
It is these Common Law mandates that this court is asked to settle and
resolve as to all Courts, all Plaintiff s and all Defendants as to when they are specif16

ically held immune under the Common Law and all other reasons cited in this peti­
tion, which is not clear at this point in time as per the decisions of the lower courts,
as to this case and this pro se petitioner.
Mr. Lawrence, 39th Congress, 1st Session, April 7, 1866, Congressional
Globe, @ 1837 said- a judge who even conscientiously denies a citizen of a right is
subject to fine and imprisonment; and if a judge knowingly denies a citizen of his
rights he is guilty of willful wrong and is deserving of punishment. I have claimed
the courts have willfully denied me of my rights and this issue has never been
addressed by this court, or any court, and the judges have also maliciously denied
me my rights and protections of them and therefore, our Common Law rights, as
found By Blackstone’s Commentaries, are affirmed in that they could not be denied
for any reason by any Judge. Joseph Story’s Commentaries, Volume 1, Pages 308309.
At Common Law, Blackstone’s Commentaries, the official who has a man­
date placed upon him that he is barred from refusing to comply with or uphold,
which begs the question, under what pretense the court’s and defendants can claim
immunity for such a violation of said mandate, is in fact immune. This petitioner
and all parties to any lawsuit and all courts need to know for a fact whether these
issues are binding on everyone concerned and this court needs to resolve these
claims which have never been addressed by this court or any court.
This case seeks to force the lower courts to be bound by Stare Decisis, to the
Common Law and its mandates and to the following issues:
1. The Liability of officials for Equity type relief that is long held to be proper
against All Officials who deny, or infringe upon, Constitutional Rights. Said relief is
outlined above for which the Third Circuit and this court have both held is viable
relief but for which they denied this pro se plaintiff of the benefit of said relief.
2. Whether the Common Law actually creates ministerial acts that is mandat
17

ed to be complied with by all Officials and thus if violated is equity and/or legal
relief available against said officials?
3. Whether a Judge or Prosecutor can be held liable for failure to abide by, or
comply with, said Common Law Mandates?
4. Whether the failure to comply with a ministerial act can hold the official
liable, for which while Mr. Reardon did so raise and cite such ministerial acts, that
the party is liable and the petitioner is entitled to relief, but was denied?
5. Whether the refusal to recuse, when required, causes a loss of jurisdiction
and thus liability for Legal and/or Equity Relief?
6. Whether the trying of an indictment that is not properly procured or is
defective causes a loss of jurisdiction and thus liability?
7. The clear Case Law and Common Law stripped jurisdiction and/or discre­
tion from the Judges and as such they usurped their jurisdiction and discretion
given the law is over 200 years old for the most part and well into at least 14 or
more decades as to case laws on such rulings and as this court held in Bradley v
Fisher, 80 U.S. 335, 1872 that if a Judge usurps his jurisdiction he is liable. Here,
the defendant lacked jurisdiction for a violation of mandatory acts of which 7 were
at common law, one that was the failure to carry out a mandatory act issued by the

N. J. Appellate court, one for failing to comply with a mandate on recusal, one On
defective indictments, and for which this court should address these disagreements
of the Lower courts as to these positions in the Law.
Should the issues raised in this petition be resolved by the Court or the Jury?
The dissenting opinion of the court under Pierson v Ray, 386 U.S. 547, 566,
567, 1967, should control under the circumstances here, immunity should not be
granted to these State Officials. These are wilful violations of rights never before
addressed by this court or any other Court.
This court has held that relief is available from void proceedings even before
18

the proceedings are decided. This case sought that such proceedings would indicate
that the jury should decide said fraud. Elliott v Piersol, @340 and State v Zisa,
N.J. App. 2015.
The court found in U.S. v Beggerly @ 45, that if time has run out for a motion
the party has a right to file a collateral lawsuit and this lawsuit sought such relief,
but was denied and should the court have indicated clearly that the only option was
to file a collateral lawsuit or that I am free to so do.
If the decisions of this court is that Judges and Prosecutors are immune, are
the other parties liable for conspiracy, complicity or as an accessory?
This court has said that the upholding of a void proceeding, the actor is a
Trespasser at law. Mr. Reardon made such a challenge and statements of facts.
The lower courts ignored and did not comply with the following law and duty
to said law.
This court said that void proceedings are not entitled to respect in any other
court. Sabariego v Maverick, 124 US 261, 293, 31 L Ed 430, 8 S.Ct. 461, 1886.
There is no estoppel defenses for void proceedings. HALL ET AL. v.
TANNING ET AL., 91 US 160, 165, 1875.
Void proceedings for lack of jurisdiction are always open to inquiry. Grover &
Baker Sewing Machine Co. v. Radcliffe, 137 US 287,294,295, 1890; US v. One
Toshiba Color Television, 213 F. 3d 147, 150, 3rd Cir. 2000.
A proceeding challenging the jurisdiction of a court prohibits such preclud­
ing of such challenges. Simmons v. Saul, 138 US 439, 448, 1891. Al-7.
There is no res judicata defense to an attack on the jurisdiction of a court.
Morell v Mock, 270 F. 3d 1090, 1096, 7th Cir. 2001, which cites 3 U.S. Supreme
court decisions.
A judgment that is void always remains void. Pennoyer v Neff, 95 U.S. 714,
728, 1877.

19

The exception to Federal-State Comity comes into play when a proceeding(s)
or order(s) is/are void and without legal effect. Raymark Industries, Inc. v Lai, 973
F. 2d 1125, 1132, 3rd Cir. 1992.
B. Decisions Below are Erroneous
Judge Hillman showed an intentional bias against Mr. Reardon by relying
on the mere claim of Judicial immunity when the judges were alleged to lack, lose
or usurp their Jurisdiction and/or Discretion due to (l) failure to recuse! (2) due to
an improperly procured and defective indictment; (3) for validating and giving credi­
bility and credence to void orders and proceedings; (4) for failure to comply with
Common Law Mandates on all Judges that prevents a judge from violating or not
upholding and enforcing said Common Law Mandates; (5) for validating the void
orders of Judges Steinberg and Greene and thus against All Appellate Court judges
and PCR Trial Judges failing to void the proceedings by Judges Steinberg and
Greene and then all the other Judges validation of all prior Judges! (6) for Judge
Steinberg’s failure to comply with a mandate placed upon him as to the process of
validating Search warrants and (7) that these defects are also applicable to all
prosecutors and the courts ignored this law.
Judge Hillman relied on the wrong law since Mr. Reardon did state the
defendants did lack, lose or usurp their Jurisdiction and/or Discretion for which
no judge or official is immune from, Bogan v Scott-Harris Supra and he cites the
3rd Cir. Case of Hafer v Melo, 13 F.3d 736, 744, 1994 and Melo v Hafer, 502 U.S.
21, 27, 1994 which admits it is only available if the act was done in his official
capacity and he had discretion to so carry out the alleged act. The defendants did
not have Discretion and/or Jurisdiction to do what Mr. Reardon charged them
with doing based on Common Law Mandates, and decisions in the state and federal
courts stripping jurisdiction from the officials.
Mr. Reardon claimed that even if the court is allowed to question immunity
20

defenses under Rule 12(b)(1) the bare claim of immunity by the officials would in
effect void all the other law on Jurisdictional and/or Discretionary defects and liabil
-ity under the cases of Bradly v Fisher; Elliot v Piersoi; Thompson v Whitman;
Antoine v Byers; Bogan v Scott-Harris and Hafer v Melo. The Courts have in effect
,in their opinion, negated, voided and ignored this law and denied the absolute right
to inquire into the jurisdiction of the State Officials for which the official claiming
immunity must so prove this and the defendants never did and the Court never
made them prove such. Buckley v Fitzsimmons, @269 and Hughes v Long @125.
The lower courts decisions are erroneous for all the reasons set out in this
petition and this court should grant the petition to ensure the petitioner’s rights
have not been unjustly denied. The courts have misapplied the law, the law to the
facts and misstated the facts or ignored them all together. These issues are excep­
tionally significant issues for all plaintiffs, all defendants and All Judges of all
courts to know and comply with.
The lower courts have shifted the burden of proof to the plaintiff when he
has stated that the judge carried out acts that were contrary to'mandates under
the common law and Appellate courts mandates, contrary to the prosecution of a
person on a defective indictment that said accused was tried on, convicted and
sentenced on and contrary to their right to claim they do not have to recuse them­
selves under the given circumstances in this case and thus are amenable to suit, or
for violating mandates against the Prosecutors and Judges and the Common Law
and case law for such mandates as per Hafer v Melo @ 744. A17-125.
The Lower courts’ decisions are in err since the courts have stated the very
reasons why this lawsuit is valid and viable and then said there is no right to claim
the liability of the Judges or Prosecutors.
This lawsuit has both a valid claim in fact and law and the court did simply
claim, without granting Mr. Reardon the right to inquire into the basis for which
21

the defendants claim they do not have to comply with the Common Law, that they
are immune from such inquiries and that the court can ignore the legal facts that
are when the jurisdiction of a court is questioned the court can still rely on the bare
claim the defendants don’t have to comply with the Common Law and then say
the defendants are therefore immune under the 11th Amendment and the principle
of Judicial or Absolute immunity and the court lacks jurisdiction.
The courts have continued to refuse to comply with all the law set out in this
lawsuit and petition and then used the fact that the Courts’ willful refusal to uphold
the law can then be used against me as a basis for their assertion that my lawsuits
are designed to harass and are frivolous and vexatious to injure Mr. Reardon for
merely exercising his 1st and 5th Amendment Rights.
The 3rd Cir. Held in US EX REL BOOKWATER v UPMC, 938 F.3d 397,
2019 that the court reviews such dismissal by the District Court De Novo and the
3rd Cir. Simply held to the claims of Judge Hillman without referring to the plead­
ings of Mr. Reardon which gave ample fact and case law stating a claim for relief
but the court simply accepted Judge Hillman’s Order to deny they have jurisdiction
and that the appearances are the defendants are in fact immune from all forms of
relief for even if legal relief was not allowed, the equity relief is but they have not
give me DeNovo review. The Lower courts singled out facts they used to make their
orders appear to be correct. Al-7, 24-26, 31-32, 36-37, 42, 45-54, 53, 60*63, 68-84,
88-126. Sutton v Racine County Court, Racine Wisconsin, 353 F. Supp. 716, 1973.
The lower courts have intentionally ruled contrary to the valid law and facts
that are valid and triable to in effect attempt to bar Mr. Reardon from filing any­
more precedent setting lawsuits and to bar him from merely exercising his 1st and
5th Amendment Rights. A85-125.
The 3rd Cir. Did not comply with the relevant law. It failed to admit that the
basis of this lawsuit has no time period in which to bring a void order due to Juris 22

dictional defects as stated in this petition and buy its own case of US v. One Toshiba
Color Television @150. Given the challenge was to the jurisdiction of the state
defendants, the court could not rely on anything from said proceedings when it did
in that they held to the claim the respondents are immune from all forms of relief
contrary to the law cited in this petition as to Jurisdiction, void orders or proceed­
ings, that laches does not apply to this lawsuit and motion and that the courts
simply said the defendants as judges and prosecutors were in fact complying with
their legally accepted norms when the allegations stated that the defendants did
usurp their jurisdiction and gave them the factual and legal basis for such and they
ignored the pleading to the proof of such defects.
The decisions below are erroneous as they simply held that as judges,any
matterr brought before them is a judicially accepted thing that they are immune
from. The lower courts have thus ruled on the position of the judge and not the
function they are aware must be their guide. In this lawsuit, Mr. Reardon did
allege the respondents lacked jurisdiction to try Mr. Reardon based on Common
Law Mandates that stripped them of their jurisdiction, as well as citing a minister
-ial act of Judge Steinberg, and loss of jurisdiction by Various Court rulings dealing
with the issue of jurisdiction of the judges for which if complied with the Judges
lost, lacked or usurped their Jurisdiction and/or discretion which stripped them of
all jurisdiction and the courts ignored these facts and law and basically held that
they are judges and anything brought to them is a judicial act which grants immun­
ity when the court’s themselves admitted in Hafer v Melo @744 that if a judge lacks
jurisdiction to carry out the alleged act they are liable but then they have said that
you cannot challenge the proceedings, and thus their function,under any set of facts.
This position in the law is totally contrary to all the law and legal claims in this
petition/lawsuit and have completely controverted any right to try and prove a
judge is in fact liable I have the absolute right to inquire into the lack of jurisdic23

tion of the respondents but was denied.
B.l. Examples of these Abuses or Errors are*
A. Case l:i5-cv*08597 challenged the Jurisdiction of a Municipal Court
Judge to try Common Law actions of debts upon a Statute summarily. This law
suit cited all the U.S. and State Court cases that Title 39 Offenses are such under
the common law and for which the people enjoy the right to such process. Allstate
Insurance Co. Of N.J. 117 A.3d 1221, N.J. Supreme Court 2015 relying on this
courts decision in Curtis v Loether, 415 U.S. 189, 1974 and that the state right to
such rights is the same as that in the U.S. Courts. Tull v U.S., 481 U.S. 412, 1987,
and Judge Hillman refused to rule consistent with this law, rights and facts and did
fail to take this law into his ruling which did deny me my right to INQUIRE into
the jurisdiction of the court and the Third Circuit upheld Judge Hillman’s error or
abuse in the law.
B. Judge Hillman found that the Federal accrual law for a lawsuit is based
on the case of State v Freeman, 347 N.J. Super 11, 32, 2002 when it is based on
the federal law which holds that accrual does not begin till the party knows the
injury and its cause. McDonough v. Smith, 139 S.Ct. 2149, 2152, 2155, 2019 and
Mitchell v. Beard, 3rd Cir. 2012 and the third Circuit ruled in favor of Judge
Hillman anyway and denied my appeal. Without knowledge of a Constitutional
Violation, the Federal Court would not have jurisdiction and the lower courts were
obviously wrong since the 9th and 14th Amendment rights raised have never been
raised before in any court and there is and was no way to timely ascertain such
rights. I did not discover a case on the fact that the 9th Amendment is enforceable in
the Federal Courts and for which in all lawsuits filed between 2013 for which I
raised by motions here, and 2015-2018 were premised on this law. The case on
Common Law remedies was discovered in March 2016.
C. Judge Hillman admitted that he must take all statements as true and
24

then ignored the facts that the lawsuit said Judge Zonies and Mr. Luongo did
usurp their jurisdiction and/or discretion and stated the factual reasons why and
the Third Circuit upheld Judge Hillman’s order and opinion.
D. Judge Hillman did rely on the state proceedings that were under the right
to challenge Jurisdiction and that he found that the Statute of limitations was from
1989 and not that there was no time to bring to the attention of the Court void
proceedings and the Appellate Court upheld Judge Hillman’s opinion and order.
E. In this case, the law and proceedings in this lawsuit and petition are of the
same ilk as those of case 08597 in that they are not consistent with the law, facts
and right of Mr. Reardon.
F. Judge Hillman did again claim he was bound to take all pleaded facts as
true and then ignored them and the Third Circuit so upheld his order and opinion.
G. Mr. Reardon did in fact state the defendants usurped their jurisdiction
and the legal basis for the facts and how they did usurp their jurisdiction and the
lower courts did dismiss the lawsuit and the Third Circuit Affirmed the order and
opinion of Judge Hillman.
H. Judge Hillman did cite the case of Hafer v Melo, 13 F.3d. 736, 744, 3rd
Cir. 1991 that holds that if the official performs a judicial or other related act relat­
ed to his position, but acts without Jurisdiction, the Judge/Official is liable and Mr.
Reardon did state the defendants usurped their jurisdiction and gave the factual
and legal reasons for said same and Judge Hilllman ignored the facts and the law
and ruled that there is no set of facts that would hold said defendants liable and the
Third Circuit upheld said order and opinion. Al-57 and 85-125.
I. The lower courts have discriminated against me, by failing to rule on the
issues raised in this and the other lawsuits, and has left the injuries without a hear­
ing or to redress said wrongs, Lawrence v State Tax Commission, 276 U.S. 282,
286, 1932 and National Life Insurance Co. v United States, 277 U.S. 508, 530,
25

1932.
J. Mr. Reardon did challenge the Constitutionality of the State’s laws and
procedures and Judge Hillman allowed the issue of the supremacy of the Federal
Laws to go unredressed and unaddressed;
K. Judge Hillman has dismissed a case on a claim of Sovereign and Absolute
or Judicial Immunity as to Declaratory, Prospective, Costs and other Equity type
relief;
L. The replete of this lawsuit and motion papers alleged the respondents did
intentionally, deliberately, willfully and knowingly deny Mr. Reardon of his rights
and that such behavior is tantamount to fraud which tolls the accrual time. Fraud
isFraud;
A false representation of a matter of fact—whether by words or by conduct, by false
or misleading allegations, or by concealment of what should have been disclosed—
that deceives and is intended to deceive another so that the individual will act upon
it to her or his legal injury.
The defendants failed, and were not required, to prove they had the right to,
or not to, do the following;
1. That they are not bound by Common Law rights and mandates;
2. They have the right to choose if they have the responsibility to or not to
recuse themselves when required and thereby lose jurisdiction if they don’t;
3. They have the jurisdictional authority to try an accused on a crime in an
indictment that was not properly procured or defective. And
4. The Judge Failed to comply with an Appellate, and other, Court Mandate
directed to all Judges.
Failure to prove these issues, and the court not requiring the parties to so do,
is tantamount to holding immunity of said officials based upon their position and
not the functions in question;
M. On page 9 of the Attempted Amendments I state the respondents did deny
me my rights deliberately, etc.
N. I was challenging the state’s procedures and Rules of Court and their
26

intent and application which Judge Hillman did not Address,*
O. Despite the clear Constitutional Challenges and immunities of the
respondents Judge Hillman left these issues unaddressed and unredressed and
denied me the right to discovery and/or a plenary hearing to require the production
of proof the respondents could do as stated in this petition;
P. The court’s failure to address and redress the Constitutional issues has in
fact discriminated against me as per Lawrence v State Tax Commission, 276 U.S.
282, 286, 19325
Q. I was denied the right to an answer of my claims as per Skinner v Switzer
, 131 S.Ct. 1289, 2011,*
R. All Mr. Reardon’s Lawsuits from 2013 to 2018 have a valid basis in both
law and fact but because of their explosive and volatile intent they are simply try*
ing to make me look like a crack pot who sues for pleasure and not to assert and
protect his rights and the District Court And Appellate courts have and continue
to so do this. Sutton v. County Court of Racine County, Wis., Branch IV, 353 F.
Supp. 716, 718, Dist. Court, ED Wisconsin, 1973.
S. Both Judge Hillman and the Third Circuit did deny Mr. Reardon of equity
relief, when they admit it is available when they admit they are liable for Equity
type relief but denied Mr. Reardon. Case l-15-cv-08597,* l-13-cv-05363.
T. Judge Kugler just dismissed Equity relief against all state Judges in case
L18-CV-11372 when he knows such relief is valid.
U. Judge Kugler showed a wilful bias against Mr. Reardon by dismissing the
defendant judges and prosecutors from case No.L18*cv*11372 for all relief sought
which specifically spelled out that I was seeking relief as per Thompson v Whitman
@ 466-468, declaratory relief as to the Constitutionality of the State’s Title 39 Laws
and for injunctive relief to bar the state judges from enforcing the State’s title 39
laws as being unconstitutional since they deprive the citizens of their Common Law
27

rights and remedies. A127.
Mr. Reardon’s Criminal charges in the state were so horrendous that they
fall into the arena found by Justice Douglas in his dissent in Pierson v Ray, 386
U.S. 547, 566, 567, 1967.
The lower courts have failed to comply with Stare Decisis as to both the right
to Equity and Legal Relief.
B.2. The Relief is and wasA. A certificate of Correction as to the claim the state usurped, lacked or lost
Subject matter and/or Personal Jurisdiction and that my conviction records be so
corrected so that I can seek relief in the State Courts for a New Trial and new
Suppression hearing on the Search Warrants. A24-57.
B. An injunction or declaration to bar the state from denying all criminal’s of
their Common Law rights as set out in this petition.
C. A declaration that the N.J. Rules of court are unconstitutional since they
deprive a defendant the right to question jurisdictional and void defects in the State
or an order that instructs the lower courts to allow civil suits for relief from state
proceedings which are more than 2 years old of the same types of claims made in
this lawsuit. Beggerly v U.S. @ 45.
D. For Costs to have to bring and defend my rights and this lawsuit. Pulliam
v Allen Supra. If permissible.
E. Damages against the state Officials. And
F. An order that the courts failed to abide by relevant law that stripped
jurisdiction from the defendants.
Conclusion
The lower courts have admitted Equity type relief is available, that the
petitioner sought said relief and was denied of said same and for which Mr.
Reardon did also state enough facts and law to sustain a claim for relief and the
28

court in fact had jurisdiction and the court found in Jones v Bock, 127 S.Ct. 910,
2007, that a complaint is not to be dismissed in its entirety if even 1 issue survives
and the Petition for a Writ of Certiorari should be granted.
Respectfully submitted.

Dated: August 22, 2020
John E. Reardon,Petitioner, Pro Se
29

